No. 19-

 

In THE
Supreme Court of the United States

REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL
AFFAIRS AND MINISTRY OF THE INTERIOR OF THE
REPUBLIC OF SUDAN,

Petitioners,
v.

JAMES OWENS, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,098 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 15, 2019.

 

Wilson-Epes Printing Co., Inc.
